September 2009
Report No. AUD-09-028


Material Loss Review of Freedom Bank
of Georgia, Commerce, Georgia
 
 
 
 
 
 
 
              AUDIT REPORT 
                                        
                                           Report No. AUD-09-028                                  September 2009


                                           Material Loss Review of Freedom
                                           Bank of Georgia, Commerce,
   Federal Deposit Insurance Corporation
                                           Georgia
Why We Did The Audit
                                           Audit Results
As required by section 38(k) of the
Federal Deposit Insurance (FDI)            CAUSES OF FAILURE AND MATERIAL LOSS
Act, the Office of Inspector General
(OIG) conducted a material loss            Freedom failed primarily due to the bank’s rapid growth and the
review of the failure of Freedom           Board of Directors’ failure to ensure that bank management
Bank of Georgia (Freedom),                 identified, measured, monitored, and controlled the risk associated
Commerce, Georgia. On March 6,             with the institution’s lending activities. Specifically, bank
2009, the Georgia Department of            management materially deviated from its business plan and did not
Banking and Finance (GDBF)                 properly oversee the bank’s significant concentrations in residential
closed Freedom and named the               real estate construction and development. In addition, loan
FDIC as receiver. On March 20,             underwriting, credit administration, and other risk management
2009, the FDIC notified the OIG            practices were inadequate.
that Freedom’s total assets at closing
were $176.4 million and the                Declining earnings resulting from the deteriorating quality of loans
estimated loss to the Deposit              in Freedom’s concentrations, coupled with the economic downturn
Insurance Fund (DIF) was                   in the bank’s market area, severely eroded the bank’s capital. The
$36.2 million. Since that time, the        bank’s liquidity became deficient and the availability of wholesale
loss has decreased to $35.8 million.       funding sources that Freedom used to fund its asset growth was
                                           restricted. The GDBF ultimately closed Freedom due to the bank’s
The audit objectives were to               capital position and inability to meet liquidity needs. The resulting
(1) determine the causes of the
                                           loss to the DIF is now estimated at $35.8 million.
financial institution’s failure and
resulting material loss to the DIF
                                           OVERVIEW AND ASSESSMENT OF FDIC SUPERVISION
and (2) evaluate the FDIC’s
supervision of the institution,
                                           As a de novo bank, Freedom was subject to additional supervisory
including implementation of the
Prompt Corrective Action (PCA)
                                           oversight and regulatory controls, such as adherence to conditions
provisions of section 38.                  established by the GDBF, which granted Freedom’s charter, and by
                                           the FDIC, which approved the bank’s application for deposit
Background                                 insurance. Those conditions included operating within the
                                           parameters of the bank’s business plan and obtaining annual
Freedom was a state-chartered              financial statement audits. In addition, Freedom was subject to an
nonmember bank insured on                  increased examination frequency with examinations during the first
February 17, 2004. As a de novo            3 years conducted on a 12-month schedule rather than every
bank for its first 3 years in              18 months.
operation, Freedom was subject to
additional supervisory oversight and       The FDIC’s examinations and off-site review identified key
regulatory controls, including the         concerns for attention by bank management, including the high
development and maintenance of a           concentration levels and weak risk management practices that
current business plan and increased        ultimately led to the bank’s failure. Together with the GDBF, the
examination frequency. Freedom             FDIC pursued enforcement action in 2008 as the bank’s financial
engaged principally in traditional
                                           condition deteriorated prior to failure in 2009. However, more
banking activities within its local
                                           supervisory attention may have been warranted, in light of the
marketplace, which experienced a
                                           bank’s de novo status, deviation from its business plan, and
significant economic downturn
starting in 2007. At closing,              significant CRE/ADC concentrations, at earlier examinations and as
Freedom had three branch offices           a result of off-site reviews. In addition, more aggressive
and was wholly owned by a one-             supervisory follow-up to ensure the bank implemented
bank holding company. Freedom              recommendations related to ADC loan concentrations, loan
had no subsidiaries or affiliates.         underwriting, and credit administration practices may have
                                           mitigated, to some extent, Freedom’s losses.
Background (cont.)                      Audit Results (cont.)

                                        With regard to PCA, on November 7, 2008, the FDIC informed
Freedom’s assets consisted              Freedom, as required by the Act, that the bank’s Total Risk-Based
principally of commercial real estate   Capital had fallen below 8 percent as of September 30, 2008, which
(CRE) loans, including a significant    placed the bank in the Undercapitalized category. The bank took
concentration in residential
                                        several measures to preserve capital and worked for several months
acquisition, development, and
                                        seeking capital injections but with minimal success. The FDIC’s
construction (ADC) loans.
                                        Atlanta Regional Office also received a Troubled Asset Relief
                                        Program application from Freedom Bancshares, Inc., the holding
                                        company for the bank in November 2008. The application was
                                        subsequently withdrawn by the holding company in early
                                        December 2008.

                                        On December 17, 2008, the GDBF, in consultation with the FDIC,
                                        issued a Cease and Desist Order (C&D) that required Freedom to
                                        take several actions aimed at raising the bank’s capital to
                                        acceptable levels. Freedom was unable to raise the additional
                                        capital required by the C&D. On February 25, 2009, the FDIC
                                        issued a letter to the bank notifying the BOD that the bank was
                                        Critically Undercapitalized, and GDBF closed the bank on
                                        March 6, 2009.

                                        Management Response
                                        The Director, Division of Supervision and Consumer Protection
                                        (DSC), provided a written response to the draft report. DSC
                                        reiterated the OIG conclusions regarding the causes of Freedom’s
                                        failure and the resulting material loss to the DIF and supervisory
                                        activities related to Freedom. DSC also acknowledged the need for
                                        more stringent supervisory attention for de novo institutions. DSC
                                        further noted that the FDIC recently extended the de novo period
                                        from the current 3-year period to 7 years for examinations, capital,
                                        and other requirements, and that material changes in business plans
                                        for newly insured institutions will require prior FDIC approval
                                        during the first 7 years of operation.




To view the full report, go to
www.fdicig.gov/2009reports.asp
Contents                                                               Page


BACKGROUND                                                               2

CAUSES OF FAILURE AND MATERIAL LOSS                                      2
 Asset Growth                                                            3
 CRE/ADC Concentrations                                                  4
 Risk Management Practices                                               5
       Key Risk Management Practices Related to Concentrations           5
       Loan Underwriting and Credit Administration Practices             6
 Adversely Classified Assets and Allowance for Loan and Lease Losses     7
 Reliance on Wholesale Funding Sources and Liquidity Management          8
       Wholesale Funding Sources                                         8
       Contingency Liquidity Planning                                    9

OVERVIEW AND ASSESSMENT OF FDIC SUPERVISION                             10
 Overview of FDIC Supervision                                           10
 OIG Assessment of FDIC Supervision                                     13
      Consideration of Risk Presented by CRE/ADC Concentrations         13
      Revision and Adherence to the Business Plan                       15
      Off-site Monitoring                                               17
      Volatile Liability Dependence                                     19
      Contingency Liquidity Plan                                        20

IMPLEMENTATION OF PCA                                                   20

CORPORATION COMMENTS                                                    22

APPENDICES
  1.   OBJECTIVES, SCOPE, AND METHODOLOGY                               23
  2.   GLOSSARY OF TERMS                                                25
  3.   CORPORATION COMMENTS                                             26
  4.   ACRONYMS USED IN THE REPORT                                      27

TABLES
  1. Financial Condition of Freedom                                      2
  2. CRE/ADC Concentrations to Total Capital Compared to Peer            4
  3. Freedom’s Non-Core Funding Sources and Net Non-Core Funding         9
      Dependence Ratios
  4. Freedom’s Examination History                                      11
  5. Results of the FDIC’s Off-site Review of Freedom                   18
  6. Probability of Downgrades in Component and Composite Ratings       19
  7. Freedom’s Capital Ratios Compared to Peer                          21

FIGURES
  1. Freedom’s Growth Compared to Its Business Plans                     3
  2. Freedom’s Asset Growth Compared to Peer                             4
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     September 18, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Freedom Bank of Georgia,
                                          Commerce, Georgia (Report No. Aud-09-028)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of Freedom
Bank of Georgia (Freedom), Commerce, Georgia. On March 6, 2009, the Georgia
Department of Banking and Finance (GDBF) closed the institution and named the FDIC
as receiver. On March 20, 2009, the FDIC notified the OIG that Freedom’s total assets at
closing were $176.4 million and the material loss to the Deposit Insurance Fund (DIF)
was $36.2 million. Since that time, the loss decreased to $35.8 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology; Appendix 2




1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    contains a glossary of terms; Appendix 4 contains a list of acronyms used in the report.

    This report presents the FDIC OIG’s analysis of Freedom’s failure and the FDIC’s efforts
    to ensure Freedom’s management operated the bank in a safe and sound manner. We are
    not making recommendations. Instead, as major causes, trends, and common
    characteristics of financial institution failures are identified in our reviews, we will
    communicate those to management for its consideration. As resources allow, we may
    also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
    program and make recommendations, as warranted.

BACKGROUND

    Freedom was a state-chartered non-member bank, established by the GDBF and insured
    by the FDIC effective February 17, 2004. Freedom, which was headquartered in
    Commerce, Georgia:

           •   operated a main office in Commerce, Georgia, and three branches in
               Jefferson, Homer, and Winder, Georgia;

           •   was a full-service community bank specializing in residential and commercial
               real estate loans (CRE), including residential acquisition, development, and
               construction (ADC) loans;

           •   provided traditional banking services within its marketplace; and

           •   was wholly-owned by a one-bank holding company, Freedom Bancshares,
               Incorporated, in Commerce, Georgia, with no other subsidiaries or affiliates.

    A summary of Freedom’s total assets, deposits, loans, and net income or loss, as of
    December 2008, and for the 4 preceding calendar years follow in Table 1.

    Table 1: Financial Condition of Freedom
                                               Dec-08       Dec-07     Dec-06     Dec-05       Dec-04
     Total Assets ($000s)                       $172,454    $147,114   $132,536    $82,513      $50,305
     Total Deposits ($000)                      $159,048    $115,783   $104,520    $66,847      $39,935
     Total Loans ($000s)                        $106,212    $118,288   $102,792    $60,778      $34,849
     Net Income (Loss) ($000s)                    (8,950)        305        646        617       (1,045)
    Source: Uniform Bank Performance Reports (UBPR) for Freedom.

CAUSES OF FAILURE AND MATERIAL LOSS

    Freedom failed primarily due to the bank’s rapid growth and the Board of Directors’
    (BOD) failure to ensure that bank management identified, measured, monitored, and
    controlled the risk associated with the institution’s lending activities. Specifically, bank
    management materially deviated from its business plan and did not exercise proper
    oversight over the bank’s significant concentrations in residential real estate construction
    and development. In addition, loan underwriting, credit administration, and other risk


                                                   2
      management practices were inadequate. Deficient oversight of high concentrations,
      coupled with weak risk management practices and controls, negatively impacted the
      bank’s ability to effectively manage operations in a declining economic environment.

      The weaknesses in Freedom’s loan portfolio were accentuated by a downturn in the
      bank’s market area. Declining earnings resulting from the deteriorating quality of loans
      in Freedom’s concentrations, in the face of an economic downturn, severely eroded the
      bank’s capital. In turn, the bank’s liquidity became deficient considering the level of risk
      exposure to the bank’s capital and earnings; and the wholesale funding sources that
      Freedom used to fund its asset growth were restricted. The GDBF ultimately closed
      Freedom due to the bank’s capital position and inability to meet liquidity needs. The
      resulting loss to the DIF at closing was estimated at $35.8 million.

Asset Growth

      The rate of Freedom’s asset growth, which included concentrations in CRE/ADC loans,
      quickly and significantly exceeded the bank’s projected growth included in Freedom’s
      original business plan that the FDIC had approved. More specifically, Freedom’s
      original business plan projected that assets at the end of the bank’s first year would total
      $24.6 million and would be comprised primarily of CRE/ADC loans. In October 2004,
      Freedom revised its business plan to update the bank’s financial projections. The revised
      plan, approved by the FDIC, projected even greater growth.

      As shown in Figure 1 below, Freedom consistently and significantly exceeded the asset
      growth projections included in the bank’s original business plan. Figure 1 also shows that
      the bank’s actual growth during calendar years 2006 and 2007 significantly exceeded the
      asset growth projections in Freedom’s revised business plan.

       Figure 1: Freedom’s Growth Compared to Its Business Plans

                            Projected Total Assets to Actual Total Assets

                           200,000

                           150,000

                           100,000

                            50,000

                                     0
                                         Dec-04   Dec-05       Dec-06       Dec-07

                Original Projected       24,560   41,351       55,073       68,061
                Total Assets
                Revised Projected        48,578   73,683       97,550       103,612
                Total Assets
                Actual Total Assets      50,305   82,813       132,536      147,114




       Source: Freedom’s Original and Revised Business Plans and UBPRs.

                                                           3
      Although Freedom’s growth consistently exceeded the bank’s projections, the bank’s rate
      of asset growth was generally less than the bank’s peer group,3 as indicated below in
      Figure 2.


                                       Figure 2: Freedom's Asset Growth
                                               Compared to Peer
                  Rate of Growth



                                   150.00%

                                   100.00%

                                   50.00%

                                    0.00%
                                               2005        2006          2007           2008
                                   Freedom    64.03%      60.62%        11.00%         17.22%
                                   Peer      136.55%      51.37%        26.29%         21.83%

              Source: UBPRs for Freedom.


CRE/ADC Concentrations

      Freedom developed and maintained a high concentration in CRE/ADC loans. As shown
      in Table 2, the bank’s concentrations in CRE/ADC loans, as a percent of the bank’s total
      capital, were significantly above the bank’s peer group averages from 2004 through 2008.

              Table 2: CRE/ADC Concentrations to Total Capital Compared to Peer
                                                    CRE                                ADC
                 Period
                 Ended                    Freedom          Peer           Freedom               Peer
                                                            Percent of Total Capital
                Dec-04           370.84                    77.05           147.19                22.00
                Dec-05           365.49                   199.74           162.90                73.29
                Dec-06           688.37                   301.84           380.99               119.79
                Dec-07           707.61                   365.00           427.64               139.80
                Dec-08        1,368.21                    409.58           709.71               139.65
              Source: UBPRs for Freedom.


      According to FIL-104-2006, entitled Concentrations in Commercial Real Estate, Sound
      Risk Management Practices, dated December 12, 2006, such concentrations can pose
      substantial potential risks and can inflict large losses on institutions. Although the
      guidance does not specifically limit a bank’s CRE lending, the guidance provides the

      3
        Commercial banks are assigned to one of 15 peer groups based on asset size, number of branches, and
      whether the bank is located in a metropolitan or non-metropolitan area. In addition, de novo banks are
      grouped by the year of opening with other de novo banks for a period of 5 years subject to the asset
      limitation. Each de novo peer group is described by its year, e.g., 2002, 2003, 2004, 2005, or 2006.
      Freedom’s peer group included institutions with assets less than $750 million established in 2004.

                                                               4
      following supervisory criteria for identifying financial institutions that may have
      potentially significant CRE loan concentrations warranting greater supervisory scrutiny:

         •   Total reported loans for construction, land development, and other land represent
             100 percent or more of the institution’s total capital; or

         •   Total CRE loans that represent 300 percent or more of the institution’s total
             capital, and the outstanding balance of the institution’s CRE loan portfolio has
             increased by 50 percent or more during the prior 36 months.

      FIL-104-2006 describes a risk management framework that institutions should implement
      to effectively identify, measure, monitor, and control CRE concentration risk. That
      framework includes effective oversight by bank management, including the BOD and
      senior executives, portfolio stress testing and sensitivity analysis, sound loan
      underwriting and administration, and portfolio management practices. As discussed later,
      Freedom’s management did not establish such controls, and that proved detrimental to
      the bank’s viability.

      The GDBF’s June 2008 examination indicated that Freedom’s concentrations in ADC
      loans totaled 413.39 percent of total capital as of March 31, 2008, more than four times
      the supervisory criteria identifying banks that may have potentially significant ADC
      concentrations warranting greater supervisory scrutiny. The ROE also noted that this
      level of concentrations highly exposed the bank’s earnings and capital to adverse market
      conditions. Further, according to the GDBF, while the bank historically maintained a
      high level of concentrations in ADC lending, Freedom did not take action to improve
      identification, measurement, monitoring, and controls of concentration risks.

Risk Management Practices

      Freedom management did not: (1) develop and effectively implement key risk
      management practices consistent with FIL-104-2006 to identify, measure, monitor, and
      control the risks related to the bank’s CRE/ADC concentrations; (2) establish sound loan
      underwriting and credit administration practices, including those recommended by its
      external auditor and examiners; and (3) maintain a sufficient allowance for loan and lease
      losses (ALLL).

      Key Risk Management Practices Related to Concentrations

         •   BOD and Management Oversight. Freedom’s BOD did not establish sufficient
             policies, procedures, and risk limits for lending concentrations. For example,
             Freedom’s loan policy required management to perform additional analysis or
             take appropriate actions, as CRE/ADC concentrations equaled or exceeded
             300 percent of capital. However, the loan policy did not discuss what specific
             measures should be taken or what additional analysis should be performed to
             mitigate increased concentration risks.



                                                  5
    •   Portfolio Management. Sound portfolio management involves identifying the
        level of correlation between real estate sectors, such as lot development and 1-
        4 single family residential construction, and establishing limits to control risk
        exposure. In addition, contingency plans for reducing or mitigating CRE
        concentrations in adverse market conditions are also necessary for sound portfolio
        management. Freedom’s management did not establish risk limits for all types of
        CRE and did not develop a concentration contingency plan or strategies to
        participate or sell portions of the CRE portfolio in adverse market conditions.

    •   Portfolio Stress Testing and Sensitivity Analyses. Freedom’s management did
        not implement an adequate stress testing model to identify, measure, monitor, and
        control risk. The stress testing was only performed on some individual loans and
        not on the portfolio as a whole and was not adequate relative to the size,
        complexity, and risk characteristics in the CRE portfolio.

Loan Underwriting and Credit Administration Practices

The FDIC, GDBF, and a firm hired by Freedom identified the need for the bank to
improve loan underwriting, credit administration, and, in general, controls associated
with CRE/ADC concentrations. However, the bank failed to take adequate and timely
action to address those concerns.

    •   The bank hired a firm to conduct an independent loan review in the third quarter
        of 2006, and the firm noted the bank’s significant concentrations in CRE/ADC
        loans, and made recommendations to improve the bank’s management practices
        for CRE/ADC concentrations.

    •   During the FDIC’s February 2007 examination of Freedom, examiners reviewed
        13 loan relationships that totaled $21 million (21 percent of the total loan
        portfolio). Based on that review, the FDIC identified several loan underwriting
        and credit administration deficiencies, including: (1) the lack of global cash flow
        analysis,4 (2) financing for many of the loans at or near 100 percent of cost,
        (3) the need for Freedom to monitor the adequacy of collateral, and (4) the need
        for Freedom to prepare detailed credit memoranda to assist the loan committee in
        making informed decisions regarding loan commitments. In addition, the FDIC
        identified deficiencies with the bank’s loan policy. The FDIC recommended
        improvements to Freedom’s construction loan guidelines as well as various risk
        management practices associated with the bank’s ADC loans.

    •   The GDBF 2008 examination found that Freedom’s loan underwriting and credit
        administration practices were still in need of improvement, considering the level
        of risk in the bank’s loan portfolio. Examiners noted that some loan files lacked
        current financial information; cash flow analyses were not being performed or

4
 Global cash flow analysis generally involves the evaluation of a borrower’s complete financial situation
and could include reviewing the borrower’s loans, other obligations, cash flow, and property information
for the purpose of assessing creditworthiness.

                                                     6
        were inadequate; appraisals were out-of-date in some files because of the
        deterioration in the market; and criticized and classified loans did not contain
        asset improvement plans, as required by the loan policy.

Freedom’s failure to implement recommendations made over 3 consecutive years to
improve these aspects of its operations limited the bank’s ability to identify, measure,
monitor, and mitigate heightened risks associated with its loan portfolio.

Adversely Classified Assets and Allowance for Loan and Lease Losses

According to the 2004 through 2007 ROEs, asset quality was rated 1 or 2, and the
allowance for loan and lease losses (ALLL) was considered adequate for the risk inherent
in the loan portfolio. However, the firm that conducted the independent loan review in
2006 determined that Freedom’s level of adversely classified loans was increasing. In
addition, the firm noted that watch grade loans had weaknesses that, if not addressed,
could lead to further decline in asset quality. Among other things, the firm recommended
that Freedom obtain up-to-date financial information to support repayment ability, project
future cash flow using payment assumptions, and enforce repayment plans. Consistent
with the 2006 independent loan review, adversely classified assets increased from less
than 1 percent at the 2006 examination, to about 5 percent in 2007, and then to 18 percent
of total assets in 2008. CRE/ADC loans comprised the majority of the $27.7 million of
adversely classified items, with the remaining classifications primarily attributable to
other real estate owned and contingent liabilities. The $27.7 million of adversely
classified items represented 187.29 percent of the total of Freedom’s Tier 1 Capital and
ALLL and resulted in deficient earnings and capital. In addition, the GDBF 2008
examination concluded that Freedom’s ALLL was underfunded, meaning that the
allowance account did not include a reasonable estimate of the credit losses included in
the loan portfolio.

At the GDBF’s 2008 examination, examiners concluded that Freedom’s methodology for
determining its ALLL was not in compliance with FIL-105-2006, Interagency Policy
Statement on the Allowance for Loan and Lease Losses, dated December 13, 2006. The
ALLL interagency policy states that each institution must analyze the collectibility of its
loans and maintain an ALLL at a level that is appropriate and determined to be in
accordance with Generally Accepted Accounting Principles (GAAP).5 An appropriate
ALLL covers estimated loan losses on individually evaluated loans that are determined to
be impaired as well as estimated loan losses inherent in the remainder of the loan and
lease portfolio. The policy further indicates that management should document
qualitative factors for determining estimated losses. Qualitative factors that should be
considered include:


5
  FIL-105-2006 reiterates key concepts and requirements pertaining to the ALLL included in GAAP and
existing regulatory guidance. In addition, the policy describes the nature and purpose of the ALLL; the
responsibilities of BODs, management, and examiners; factors to be considered in the estimation of the
ALLL; and the objectives and elements of an effective loan review system, including a sound loan grading
system.

                                                   7
               •   levels of and trends in delinquencies and impaired loans;
               •   levels of and trends in charge-offs and recoveries;
               •   national and local economic trends and conditions; and
               •   industry conditions and credit concentrations.

      Freedom’s methodology determined estimated losses in groups of non-impaired loans by
      multiplying the groups’ book balances against historical loss percentages in peer group
      data. As a result, Freedom’s methodology only addressed a few of the relevant factors
      listed in the policy.

Reliance on Wholesale Funding Sources and Liquidity Management

      Freedom pursued a risky business strategy that included heavy reliance on wholesale
      funding sources to fund its asset growth concentrated in CRE/ADC loans. In addition,
      the bank did not develop an adequate contingency liquidity plan (CLP).

      Wholesale Funding Sources

      Freedom’s funding structure centered on high-cost volatile funds to fund its growth,
      including Federal Home Loan Bank (FHLB) borrowings, time deposits of $100,000 or
      greater, and Internet certificates of deposit (CD). As of March 31, 2008, Freedom’s
      liquidity levels were low due to an increasing level of nonperforming assets, and because
      a significant level of deposits being held as collateral was not available as a funding
      source. Accordingly, the bank’s ability to meet funding obligations was threatened. As
      Freedom’s financial condition deteriorated, access to funding sources, namely FHLB
      advances and brokered deposits, became restricted. Further, the bank was subject to
      restrictions on the interest rates it could pay on other deposits, making it difficult for
      Freedom to attract such deposits.6

      As shown in Table 3, for the years ended December 2004 through December 2008,
      Freedom was heavily dependent on high-cost, non-core volatile funding sources such as
      FHLB borrowings and time deposits of $100,000 or greater. Except for 2008, Freedom
      consistently exceeded its peer group average for net non-core funding.




      6
       As discussed later in the report, according to section 29 of the FDI Act, once an institution is determined to
      be undercapitalized, as defined in Part 325 of the FDIC Rules and Regulations, the institution is prohibited
      from receiving brokered deposits. In addition, section 38 of the FDI Act permits the FDIC to restrict the
      interest rates paid by a significantly undercapitalized institution.

                                                            8
Table 3: Freedom’s Non-Core Funding Sources and Net Non-Core
Funding Dependence Ratios
                  Non-Core Funding Sources             Net Non-Core Funding Dependence Ratios
                    (Dollars in Thousands)                            (Percent)
    Period
    Ended     Time Deposits of        FHLB                                                          a
                                                      Freedom       Peer Group         Percentile
              $100M or More         Borrowings

  Dec-04        $11,979               $3,700           27.65          (28.29)       Not applicable
  Dec-05        $23,085               $4,500           36.19           11.30        Not applicable
  Dec-06        $42,800               $16,000          46.87           22.73             89
  Dec-07        $45,771               $18,500          47.01           28.50             86
  Dec-08        $71,460               $8,000b          36.99           37.18             48
Source: UBPRs for Freedom.
a
  Percentile represents Freedom’s ranking within the bank’s designated peer group average, meaning
that Freedom’s ratio was higher than 89 percent of the institutions in its peer group in December 2006.
b
  The FHLB borrowing lines were reduced in excess of 50 percent due to a large percentage of the pledged
commercial loans deemed to be nonconforming.

A bank’s net non-core funding dependence ratio indicates the degree to which the bank is
relying on non-core/volatile liabilities to fund long-term earning assets. Generally, a
lower ratio reflects less risk exposure, whereas higher ratios indicate greater risk
exposure and a reliance on funding sources that may not be available in times of financial
stress or adverse changes in market conditions.

A heavy reliance on potentially volatile liabilities to fund asset growth is a risky business
strategy because the availability and access to these funds may be limited in the event of
deteriorating financial or economic conditions, and assets may need to be sold at a loss in
order to fund deposit withdrawals and other liquidity needs.

The GDBF’s June 2008 examination concluded that the bank’s net non-core dependence
ratio was excessive—at 44.35 percent as of March 31, 2008—indicating great risk
exposure and potentially unavailable funding sources. That ratio had increased to
56.07 percent as of June 30, 2008. The GDBF June 2008 ROE stated that bank
management should take immediate action to improve liquidity and funds management,
including reducing the bank’s dependence on volatile funds.

Contingency Liquidity Planning

Freedom did not have a CLP that addressed, at a minimum, all sources and uses of
funding, current and expected availability of any secondary sources of funding, and
marketing strategies to attract core deposits. As discussed previously, when the bank’s
financial condition deteriorated in 2008, various sources of funding were restricted, and
bank management was not successful in obtaining sufficient liquidity for the institution.

Examiners noted that management had not developed a sources and uses of funds
statement to (1) assess future liquidity needs or address the borrowers’ failure to pay and
(2) indicate the effect of operating losses on liquidity. A more detailed sources and uses
statement could have helped to project the liquidity position of Freedom. The GDBF

                                                         9
      recommended in the 2008 examination that Freedom develop a written liquidity
      contingency plan and enhance its sources and uses of funds reporting to improve liquidity
      management.

      According to the Examination Manual, CLPs should be in force and include strategies for
      handling liquidity crises and procedures for addressing cash-flow shortfalls in emergency
      situations. The manual also states that financial institutions should have an adequate CLP
      in place to manage and monitor liquidity risk, ensure that an appropriate amount of liquid
      assets is maintained, measure and project funding requirements during various scenarios,
      and manage access to funding sources.

OVERVIEW AND ASSESSMENT OF FDIC SUPERVISION

      The FDIC’s examinations and off-site review identified key concerns for attention by
      bank management, including the high concentration levels and weak risk management
      practices that ultimately led to the bank’s failure. Together with the GDBF, the FDIC
      pursued enforcement action in 2008 as the bank’s financial condition deteriorated prior to
      failure in 2009. However, more supervisory attention may have been warranted, in light
      of the bank’s de novo7 status, material deviation from its business plan, and significant
      CRE/ADC concentrations at the FDIC’s 2005 and 2007 examinations and after the 2007
      examination during off-site reviews. In addition, more aggressive supervisory follow-up
      to ensure the bank implemented corrective actions for recommendations related to ADC
      loan concentrations, loan underwriting, and credit administration practices may have
      mitigated, to some extent, Freedom’s losses.

Overview of FDIC Supervision

      As a de novo bank, Freedom was subject to additional supervisory oversight and
      regulatory controls, such as adherence to conditions8 established by the GDBF, which
      granted Freedom’s charter, and by the FDIC, which approved the bank’s application for
      deposit insurance. Those conditions included, but were not limited to, operating within
      the parameters of the bank’s business plan and obtaining annual financial statement
      audits. In addition, Freedom was subject to an increased examination frequency, with
      examinations during the first 3 years conducted on a 12-month schedule.

      The GDBF and FDIC alternated safety and soundness examinations of Freedom,
      conducting 5 examinations from August 2004 through June 2008. Table 4 lists
      Freedom’s examination dates, who conducted the examination, and the CAMELS
      component and composite ratings.

      7
        At the time Freedom was established and received deposit insurance, the designation as a “de novo”
      institution indicated newly established banks that were in their first 3 years of operation. The FDIC issued
      guidance in August 2009 extending the de novo period to 7 years.
      8
        Along with the submission of initial applications for deposit insurance, proposed financial institutions are
      expected to submit business plans that include information on a bank’s business strategy and financial data
      for a 3-year period. The FDIC can impose standard conditions and may include nonstandard conditions for
      bank operations, as deemed appropriate, in the Final Order for Deposit Insurance.

                                                           10
       Table 4: Freedom’s Examination History
                                            Examination             CAMELS* Component and
             Examination Date               Conducted By              Composite Ratings
                 08/12/2004                     GDBF                          222312/2
                 01/31/2005                      FDIC                         212322/2
                 02/02/2006                     GDBF                          112312/2
                 02/05/2007                      FDIC                         212222/2
                 06/09/2008                        GDBF                           555554/5
       Source: ROEs for Freedom.
       *
         Financial institution regulators and examiners use the Uniform Financial Institutions Rating
       System (UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS
       acronym: Capital adequacy, Asset quality, Management practices, Earnings performance,
       Liquidity position, and Sensitivity to market risk. Each component, and an overall composite score,
       is assigned a rating of 1 through 5, with 1 having the least regulatory concern and 5 having the
       greatest concern.

The FDIC conducted its first visitation of Freedom concurrently with the GDBF’s August
2004 examination. Although the FDIC did not make any formal recommendations, the
visitation identified rapid loan growth, underwriting concerns, and large cumulative
losses, which included the bank’s pre-opening expenses. The FDIC’s 2004 visitation also
determined that Freedom was developing an ADC concentration that represented
73.6 percent of total capital and 23.1 percent of total loans.

In 2005 and 2006, the FDIC and GDBF, respectively, conducted examinations and
determined that the bank’s overall condition was satisfactory. The FDIC’s 2005
examination noted that the bank’s ADC reporting would be enhanced to include the
bank’s anticipated concentration in ADC lending. At that time, according to UBPRs and
based on the FDIC’s supervisory guidelines, Freedom had already established CRE/ADC
concentrations—with CRE representing 371 percent and ADC representing 147 percent
of total capital, respectively. The FDIC also concluded that Freedom’s total assets and
deposits were consistent with the asset and deposit projections included in the bank’s
revised business plan.

The FDIC’s February 2007 examination identified and reported Freedom’s significant
CRE/ADC concentrations and included recommendations to improve Freedom’s
operations. These recommendations related to Freedom’s identification and monitoring
of loan concentrations, loan underwriting and credit administration, and improvements
needed in the bank’s risk management controls.

Between the 2007 and 2008 examinations, the FDIC’s supervisory approach was limited
to off-site review activities.9 These efforts were conducted quarterly from March 2007
through March 2008 (except for September 2007) and noted concerns related, but not

9
  The Off-site Review Program is designed to identify emerging supervisory concerns and potential
problems so that supervisory strategies can be adjusted appropriately. Off-site Reviews are performed
quarterly for each bank that appears on the Off-site Review List. DSC’s regional office management is
responsible for implementing procedures to ensure that Off-site Review findings are factored into
examination schedules and other supervisory activities.

                                                   11
limited, to asset growth, reliance on volatile funding, and other risk factors. In response
to FDIC inquiries during this time frame, Freedom’s management reported that changes
in the residential construction market would not have a material impact on the bank.
However, bank management’s assertions later proved to be incorrect.

On March 31, 2008, the FDIC completed an off-site review of the institution’s
December 31, 2007 Consolidated Reports of Condition and Income (Call) Report data
and noted significant concentrations in ADC and CRE of 431 percent and 204 percent,
respectively, and a high probability of downgrade to Freedom’s CAMELS and composite
ratings. In addition, the off-site review noted that the level of increasing problem assets
was expected to continue in light of the market conditions. As a result of the bank’s
deteriorating financial condition, the GDBF accelerated the 2008 examination from the
scheduled date of August 2008 to June 2008. Although ARO officials could not provide
documentation indicating that the acceleration decision was based on DSC’s off-site
monitoring, ARO officials stated that the acceleration of the State’s examination was at
the very least a mutual decision by the regional office and the GDBF. The GDBF’s June
2008 examination revealed that the overall condition of the institution was poor and the
viability of the institution was questionable. The FDIC conducted a visitation in
November 2008 to obtain an update on Freedom’s liquidity status and contingency
planning, as well as a summary of the FHLB findings of its onsite collateral review10 at
the bank. In September 2008, the FDIC and the GDBF required Freedom to begin
reporting its liquidity position until further notice. The bank’s liquidity reports revealed a
declining liquidity position for Freedom.

On December 17, 2008, the GDBF, in consultation with the FDIC, issued a Cease and
Desist Order (C&D). The C&D required Freedom management to, among other things:

      •   revise its capital plan to meet the minimum capital requirements;

      •   revise its funds management plan and detail how the bank would restore its
          liquidity to an adequate level;

      •   review concentrations of credit to identify the level of risk and revise its written
          concentrations of credit plan to systematically reduce the bank’s level of
          concentration risk; and

      •   review the adequacy of the ALLL and improve its policy for determining the
          adequacy of the ALLL.

On March 6, 2009, the GDBF closed Freedom because of its severely deteriorated
financial condition and inability to raise additional capital and appointed the FDIC as
receiver of the bank.



10
 The FHLB conducted an onsite review to check the bank’s pledged loan files for conformity with the
FHLB’s pledging agreement between itself and Freedom.

                                                  12
OIG Assessment of FDIC Supervision

      The FDIC and GDBF conducted regular examinations of Freedom and reported issues
      that led to the bank’s ultimate failure. However, more aggressive or timelier supervisory
      actions could have been taken based on the risk presented by the bank’s (1) CRE/ADC
      concentrations, including those identified through off-site review; (2) material deviations
      from its business plan; (3) dependence on volatile funding; and (4) inadequate
      contingency liquidity plan.

      Consideration of Risk Presented by CRE/ADC Concentrations. Freedom’s rapid
      growth and CRE/ADC concentrations resulted in a high-risk profile for the institution—
      particularly given its de novo status—and consistently exceeded supervisory guidelines.
      This high-risk profile, however, did not result in elevated supervisory concern or actions
      early enough to sufficiently mitigate Freedom’s vulnerability to substantial losses.

      Supervisory guidance, risk factors, and supervisory monitoring that should have resulted
      in elevated supervision by the FDIC include the following.

         •   In 2003, the DSC Atlanta Regional Office (ARO) conducted a CRE Review
             Project that included institutions exhibiting significant levels of CRE
             concentration (more than 300 percent of Tier 1 Capital)—a level that, according
             to the FDIC, traditionally represented a relatively high concentration of CRE
             loans and increased risk to the bank. Freedom’s level of concentrations
             consistently and significantly exceeded that level as early as December 2004.

             The CRE review (1) confirmed the need for bank management to develop and
             implement lending programs that incorporate certain key components;
             (2) concluded that a sound CRE lending program begins with BOD and senior
             management direction and oversight; and (3) stated that developing and adhering
             to a comprehensive loan policy that establishes clear and measurable standards for
             production, underwriting, diversification, risk review, reporting, and monitoring
             was critical.

         •   In November 2004, Freedom submitted, and the FDIC approved, a revised
             business plan with updated financial projections for the bank. Freedom materially
             deviated from its original and revised business plan by quickly and consistently
             exceeding asset growth projections. (We discuss Freedom’s business plan and the
             supervisory coverage the plan was provided in more detail in the next section of
             this report.)

         •   At the January 2005 FDIC examination, bank management indicated that the
             ADC reporting would be modified to include Freedom’s anticipated concentration
             in ADC lending. However, according to the Freedom’s December 31, 2004
             UBPR, the bank had already established a concentration in CRE and ADC loans
             of 371 percent and 147 percent, respectively. These levels significantly exceeded
             those of the bank’s peer group. However, the FDIC rated asset quality a “1” at


                                                  13
         the January 2005 examination, indicating that (1) Freedom had strong asset
         quality and credit administration practices, (2) identified weaknesses were minor
         in nature, (3) risk exposure was modest in relation to capital protection and
         management’s abilities, and (4) asset quality was of minimal supervisory concern.

     •   As a de novo bank, Freedom established and maintained significant levels of
         higher-risk CRE/ADC loans. Freedom exhibited risk factors reported in DSC’s
         2004 De novo Bank Study,11 which concluded that de novo institutions frequently
         exhibit factors that present significant risks, including, but not limited to (1) weak
         oversight by the BOD; (2) rapid asset growth, including CRE/ADC loans;
         (3) dependence on non-core deposits to fund asset growth; and (4) departure from
         the business plan by exceeding projected asset growth.

     •   The FDIC’s pre-examination planning (PEP) memorandum for the February 2007
         examination noted various issues that presented elevated concern. Among other
         things, the memorandum reported that Freedom’s:
             ο asset level was more than double the bank’s original third-year projected
                 level;
             ο concentration in ADC loans was significant, representing 420 percent of
                 Tier 1 Capital as of December 31, 2006—this level was more than four
                 times the supervisory guidelines;
             ο continued and rapid loan growth was 69 percent over the past year’s
                 growth rate, and was primarily in ADC loans with a continued focus on
                 construction and development loans;
             ο past due loans had increased from .04 percent to 2.04 percent and that the
                 ratio remained manageable;
                                                 12
             ο Real Estate Stress Test (REST) score was 5—indicating the highest level
                 of exposure to potential market deterioration—due to concentration in
                 ADC loans;
             ο watch list reflected significant increases in adversely classified assets but
                 the adversely classified items coverage ratio was minimal at 6.79 percent.

         The memorandum also noted that Freedom planned to raise $4 million in
         additional capital in the first quarter of 2007 to support asset growth centered in

11
   The DSC Atlanta Region led an interregional study of de novo financial institutions in fulfillment of a
DSC 2004 business line objective. The purpose of the study was to review the timing of, and susceptibility
to, problems of de novo financial institutions and to determine important factors in the application process
that would aid in the efficient supervision of new banks. The study also provided information on “young”
banks, which are banks in the fourth through ninth years of operation. The FDIC’s Division of Insurance
and Research and Legal Division also participated in the study.
12
   REST attempts to simulate what would happen to banks today if they encountered a real estate crisis
similar to that of New England in the early 1990s. The primary risk factor is the ratio of construction and
development loans to total assets. Other risk factors include the percentage of CRE loans, percentage of
multifamily loans, percentage of commercial and industrial loans, and high non-core funding and rapid
asset growth. A bank with a high concentration in construction and development loans, coupled with rapid
asset growth, would appear to be riskier than a bank with similar concentrations but low asset growth.
REST uses statistical techniques and Call Report data to forecast an institution’s condition over a 3- to
5-year period and provides a single rating from 1 to 5 in descending order of performance quality.

                                                    14
       ADC loans, earnings were moderately ahead of original projected levels, and the
       bank’s net income was higher than the original third year projection.

       It was apparent from the 2007 ROE that examiners conducted procedures to
       address the issues in the PEP memorandum. For instance, the ROE stated that
       Freedom had a concentration in ADC loans that represented 585 percent of Tier 1
       Capital, as of December 31, 2006. This concentration level was more than
       5 times above the 100 percent supervisory criteria that FIL-104-2006 indicates
       may warrant greater supervisory scrutiny. In addition, Freedom’s CRE level was
       more than twice that of its peer group, and the bank’s ADC level was more than
       three times its peer group’s concentration. Further, the FDIC’s 2007 examination
       reported that the bank planned a 30-percent increase in assets, with significant
       increases in ADC loans, which already greatly exceeded the supervisory criteria
       in FIL-104-2006. Examiners also noted that the bank’s asset growth was
       continuing to outpace Freedom’s capital. Finally, the ROE for this examination
       included several recommendations related to Freedom’s risk management
       processes, controls related to the bank’s CRE/ADC concentrations, and
       Freedom’s loan policy.

       Although the ROE included annotations indicating that bank management had
       agreed to consider or implement the recommendations, the FDIC’s transmittal
       letter for the ROE did not require a formal response or status reports on corrective
       actions. According to the DSC Case Manager Procedures Manual, for
       institutions rated a 1 or 2, the transmittal letter can merely reference the
       examination report and request the BOD to review the report and note its review
       in the BOD minutes. For those institutions with moderate concerns, the
       transmittal letter should include a brief discussion of problem areas and a request
       for a written response. Based on the above guidance and considering the
       significance of the recommendations included in the February 2007 ROE, it may
       have been prudent for the FDIC to specifically request that Freedom’s BOD
       provide a written response to the ROE that would have outlined the planned
       and/or actual corrective actions to address the FDIC’s concerns and identified
       deficiencies.

       Finally, in spite of the risks identified in the PEP memorandum and ROE, the
       FDIC rated Freedom’s asset quality as a “1” in the 2007 ROE. The rating was
       based, in part, on the fact that (1) the level of adverse classifications totaled
       approximately $719,000, were generally confined to one relationship, and the
       adversely classified asset ratio was 5.64 percent; (2) the past-due ratio was
       2.04 percent; and (3) bank management had identified all classified loans.
       However, the risks identified in the PEP memorandum and subsequent
       examination seem to be in contrast with the broader definition of a 1-rating,
       which, in part, indicates that asset quality was of minimal supervisory concern.

Revision and Adherence to the Business Plan. Proposed financial institutions are
expected to submit business plans with their initial applications for federal deposit


                                            15
insurance. According to the FDIC Statement of Policy on Applications for Deposit
Insurance, and in compliance with sections 5 and 6 of the FDI Act, the FDIC must be
assured that the proposed institution does not present an undue risk to the DIF. The
FDIC expects that proposed institutions will submit a business plan commensurate with
the capabilities of its management and the financial commitment of the incorporators.
Any significant deviation from the business plan within the first 3 years of operation—the
de novo phase—as required by the FDIC’s Final Order for Deposit Insurance must be
reported by the insured depository institution to the primary federal regulator 60 days
before consummation of the change.

Freedom requested approval of its revised business plan in November 2004, stating that
the only significant variance from the original business plan was the rapid asset growth
the bank had experienced. In fact, Freedom’s actual total assets as of September 30,
2004, had already grown to $41.3 million—far exceeding the projected total assets of
$24.6 million as of December 30, 2004 in its original business plan. The FDIC advised
Freedom in December 2004 that it had no objection to the revised plan. The only
condition the FDIC imposed was that the bank should ensure it maintained a Tier 1
Leverage ratio of at least 8 percent until February 2007.

The Examination Manual states that examiners should review and evaluate current
business plans and any changes thereto since the previous examination. In that regard,
the FDIC addressed the business plan in visitations and examinations conducted in 2004
through 2007 and noted the following:

   •   2004 FDIC Visitation Memorandum: The FDIC indicated that the balance
       sheet reflected loan growth well beyond pre-opening projections.

   •   2005 FDIC ROE: The FDIC stated that operating losses exceeded projections
       indicated in the Application for Deposit Insurance primarily due to higher than
       expected provision expenses associated with the bank’s strong loan growth. The
       report also noted that the business plan was revised in October 2004 to update the
       financial projections. The FDIC noted that asset growth exceeded the initial
       projections due to tremendous loan growth but was in line with the revised
       projections. The report contained comparisons between the original business
       plan, revised business plan, budget, and actual results. The comparisons showed
       that actual total loans were almost three times the initial projections, but slightly
       lower than revised projections. Actual total assets were double the original
       estimates and slightly higher than revised estimates.

   •   2006 GDBF ROE: The report noted that management had revised the original
       business plan to mirror revised performance expectations and that variance reports
       using the revised plan were being prepared monthly for the BOD.

   •   2007 FDIC ROE: The report stated that “There have been no major deviations
       or material changes to the business plan that was originally submitted to the
       FDIC.” The ROE included a section that compared financial projections at the


                                            16
       time the bank received deposit insurance to the actual balance sheet as of
       February 2007. The section included a statement that the bank had significantly
       exceeded original growth projections and showed third-year projected real estate
       loans of $29.1 million versus actual real estate loans of $94.1 million.

Of note in the aforementioned reports is the fact that the 2004 visitation memorandum—
issued before the revised business plan was submitted for approval—included key
findings of rapid loan growth and early-on underwriting concerns. However, the report
concluded that loan quality issues appeared to be contained largely due to management’s
actions. That trend of findings largely continued in 2005 and 2006; that is, high growth
in excess of projections was noted. The FDIC expressed limited or no concern based on
the FDIC’s conclusion that Freedom’s asset quality was considered to be strong with
nominal adverse classifications and past due loans. With regard to the FDIC’s 2007
ROE, the conclusion that there had been no major deviations or material changes to the
business plan seems inconsistent with the difference between projected and actual real
estate loans discussed above, and with the fact that, as of December 2006, Freedom’s
total actual assets exceeded original projections by about 140 percent and revised
projections by 36 percent. It should be noted, however, that at the time this examination
was conducted, DSC had not issued guidance to examiners that defined what would
constitute a “material deviation” from a business plan. Further, ARO officials advised us
that regional practice did not consider growth in excess of projections as a material
deviation.

In August 2009, DSC issued a memorandum that provides supplementary guidance to its
examiners for processing deposit insurance applications and requests for changes in
business plans by de novo institutions and provides guidance regarding supervision and
examination procedures for de novo institutions for which the FDIC is the primary
federal regulator. While the guidance notes that examiner judgment is critical in
determining a major change or deviation in business plan, it specifically states that any
variance between projected and actual asset levels exceeding 25 percent will be
considered a material deviation from the business plan. Going forward, new deposit
insurance orders for state nonmember institutions will require institutions to obtain prior
approval from the FDIC on any proposed major change or deviation in their business
plan. Finally, in those instances when an institution has implemented a material change
in its business plan without providing prior notice or obtaining the FDIC’s prior non-
objection, the assessment of civil money penalties or other enforcement action against the
institution or other appropriate parties should be considered.

Off-site Monitoring. Because February 2007 was the end of the de novo period for
Freedom and the bank’s composite and component ratings were 1 or 2, the bank’s next
full-scope examination was scheduled to be conducted by the GDBF 18 months later.
The FDIC’s intervening off-site reviews of Freedom identified heightened risk the bank
was facing. However, the results of the reviews did not result in substantial adjustments
to the FDIC’s supervisory strategy.




                                            17
As shown in Table 5, for the first two quarterly off-site reviews conducted for quarters
ending March and June 2007, the FDIC generally had positive observations regarding
Freedom’s loan portfolio and management. However, at the time of these reviews,
Freedom’s level of concentrations in CRE/ADC loans was significantly high and
substantially exceeded the levels that the 2006 supervisory guidance identified as
warranting increased attention. A subsequent off-site review conducted in March 2008
based on December 2007 Call Report data, did identify several risk areas that should
have resulted in greater supervisory attention.

Table 5: Results of the FDIC’s Off-site Reviewa of Freedom
 Date of Financial Data Used for Off-Site Review        3/31/2007    6/30/2007    12/31/2007      3/31/2008
     Date FDIC Conducted Off-Site Review                7/2/2007     9/26/2007    3/17/2008       7/2/2008

          FDIC’s Off-site Review Comments
Asset/loan growth was consistent with rapid growth              9             9
of de novo banks
ADC loan concentration was manageable in the                    9             9
normal course of business
Management was knowledgeable and monitoring the                 9             9
bank’s exposure
Capital supported the bank’s risk profile                       9             9
Management planned to raise capital to support asset            9             9
growth
The bank was relying on volatile funding                        9             9
The bank was flagged for having a REST Score of 5                                           9
Significant CRE/ADC loans representing 431 percent                                          9
and 204 percent of capital and ALLL
High probability of downgrades in five of the six                                           9
CAMELS ratings
Elevated levels of non-accrual and past due loans                                           9
The level of increasing problem assets was expected                                         9
to continue
FDIC would continue to monitor the bank closely                                             9
Multiflags indicated the need for off-site review b
                                                                                            9          9
ADC loans represented 464 percent of total Capital                                                     9
and CRE loans represented 234 percent of total
Capital
Past due loans represented 9.68 percent of total loans                                                 9
The bank’s return on average assets (ROAA) was a                                                       9
negative 2.63 percent
Loan review had classified 200 percent of Tier 1                                                       9
Capital and ALLL
Source: FDIC off-site review reports for Freedom.
a
  According to the FDIC Case Manager Procedures Manual, off-site reviews must be completed and
approved 3½ months after each Call Report date. This generally provides 45 days to complete the off-site reviews
once Call Report data is finalized -- generally 45 days after the Call Report financial date.
b
  Multiflag represents the process of combining multiple risk measures such as the REST, Statistical CAMELS
Off-site Rating (SCOR), SCOR-Lag, Young Institutions, and Consistent Grower. According to the FDIC,
institutions with multiple exceptions are considered to be high-risk institutions.

Further, as shown below in Table 6, Freedom was flagged for review in March 2008
based on its December 31, 2007 financial data. The primary concerns noted were the

                                                   18
bank’s rapid loan growth—which was concentrated in CRE/ADC loans—and the
probability of downgrades in the bank’s CAMELS ratings.

      Table 6: Probability of Downgrades in Component and Composite Ratings
                                       Rating at the Time of       Probability of Downgrade
            CAMELS Category              Off-site Review                Based on SCOR
                                                                            (Percent)
       Capital                                   2                             53
       Asset Quality                             1                             97
       Management                                2                             85
       Earnings                                  2                             92
       Liquidity                                 2                             64
       Sensitivity to Market Risk                2                   Not provided in SCOR
       Composite Rating                          2                             89
      Source: FDIC’s SCOR model, based on financial data as of December 31, 2007.

According to the Examination Manual, limited scope examinations and visitations may
be used to determine changes in an institution’s risk profile and to follow up on SCOR
results. In this case, based on the December 2007 review, the FDIC did not conduct a
visitation to assess the bank’s financial condition. Instead, the FDIC decided to closely
monitor Freedom, noting that the onsite GDBF examination was scheduled for the third
quarter of 2008.

Although the GDBF’s examination was accelerated from August to June 2008, 2 months
had elapsed since the off-site measures reflected increased risk, and 16 months had
elapsed since the previous examination. Furthermore, while the timing of the 2008
examination was consistent with FDIC policies for examination of a 1- or 2-rated bank,
this lag in detailed examination coverage may have prevented more thorough coverage of
the risks and timelier supervisory action—and perhaps took away opportunities to
minimize the loss that the institution ultimately suffered.

Volatile Liability Dependence. As early as the January 2005 examination, the FDIC
reported that bank management relied on CDs acquired through the Internet and FHLB
advances to fund growth. Although the bank’s internally-calculated net non-core
dependence ratio continually increased, management considered the majority of the large
CDs to be stable deposits of loyal customers. The bank’s net non-core funding
dependence ratio ranged from a level of 27.65 percent in December 2004 to a high of
47.01 percent in December 2007.

According to the Examination Manual, funds management practices should ensure that
liquidity is not maintained at a high cost, or through undue reliance on funding sources
that may not be available in times of financial stress or adverse changes in market
conditions. However, the FDIC did not take exception to, or require the bank to reduce,
its dependence on potentially volatile funding sources. The FDIC could have expressed a
greater level of concern and/or required the bank to develop strategies for reducing the
volatility of its funding at the 2007 examination because (1) at that time, Freedom’s net
non-core funding dependence ratio was reported at 46.87 percent at December 31,
2006—an increase from the 43 percent reported at the prior examination of Freedom,

                                              19
    (2) Freedom’s dependence ratios consistently exceeded its peer group, and (3) a bank’s
    access to secondary funding sources can be limited when its financial condition
    deteriorates.

    Contingency Liquidity Plan. The GDBF June 2008 ROE stated that bank management
    lacked a CLP and had not developed a sources and uses of funds statement to assess
    future liquidity needs. In contrast, the FDIC concluded at the bank’s 2007 examination
    that liquidity contingency arrangements were adequate and funds management practices
    were satisfactory.

    The FDIC’s Examination Manual states that financial institutions should have an
    adequate CLP in place to manage and monitor liquidity risk, ensure that an appropriate
    amount of liquid assets is maintained, measure and project funding requirements during
    various scenarios, and manage access to funding sources.

    Based on our review of the above plan, which was in effect at the time the FDIC
    conducted its 2007 examination, we determined that the plan did not include the
    following elements:

       •   assessment of the possible liquidity events that the institution might encounter;
       •   assessment of the potential for erosion of liquidity by funding source under
           various scenarios and the potential liquidity risk posed by activities, such as asset
           sales and securitization programs; and
       •   a matching of potential sources and uses of funds.

    However, the FDIC had not identified deficiencies in the CLP or recommended that the
    bank enhance the plan before, or as a result of, its 2007 examination.

IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory and discretionary supervisory actions that are to be triggered depending on an
    institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
    PCA requirements by establishing a framework for taking prompt corrective action
    against insured nonmember banks that are not adequately capitalized.

    Table 7, on the next page, shows how Freedom’s capital ratios compared to the bank’s
    peer group for each examination and the change in capital ratios between the August
    2004 examination and the June 2008 examination. In addition, Table 7 shows that
    Freedom’s capital ratios were significantly lower than the bank’s peer group for each
    examination conducted by the FDIC and the GDBF.




                                                20
Table 7: Freedom’s Capital Ratios Compared to Peer
                                            Tier 1 Leverage          Tier 1 Risk-        Total Risk-Based
  Examination       Financial Data as           Capital            Based Capital             Capital
     Dates                of Date          Bank         Peer      Bank       Peer        Bank        Peer
 August 2004       March 31, 2004          69.54        N/A*      90.15      N/A*        91.38       N/A*
 February 2005 December 31, 2004           15.24        51.34     17.36      85.40       18.61       86.27
 February 2006 September 30, 2005           13.61       22.09     17.27      29.81       18.52       30.82
 February 2007 December 31, 2006            9.02        14.30     10.62      17.18       11.72       18.23
 June 2008         March 31, 2008           8.13        11.41      9.27      13.33       10.53       14.38
Source: ROEs and UBPRs for Freedom.
* Not applicable because the UBPR data for these ratios was determined to be unreliable.

As of September 30, 2008, Freedom’s capital ratios were as follows:

    •   Tier 1 Leverage Capital            5.63 percent
    •   Tier 1 Risk-Based Capital          6.60 percent
    •   Total Risk-Based Capital           7.88 percent

On November 7, 2008, the FDIC informed Freedom that, based on the September 30,
2008, Call Report, the bank reported Total Risk-Based Capital of 6.60 percent – below
the 8 percent threshold as required by PCA, which placed the bank in the
Undercapitalized category. Based on this capital category, Freedom had to comply with
various restrictions. Those restrictions were related, but not limited to, asset growth,
dividends, other capital distributions, and management fees. Freedom was also required
to file a written capital restoration plan with the FDIC within 45 days. Although
Freedom was not using brokered deposits, this capital category prohibited the bank from
accepting, renewing, or rolling over any brokered deposits. In early November 2008, the
bank contracted with an investment banker to assist with raising capital. The agreement
with the investment banker included seeking capital investors, selling fixed assets, or
finding a merger partner. The bank also took several measures to preserve capital,
including significant expense reductions, limiting new loans, and improving earnings
with the installation of an interest rate floor on new and renewing loans. The bank also
worked for several months seeking capital injections from board members and existing
shareholders but with minimal success.

The ARO also received a Troubled Asset Relief Program Application from Freedom
Bancshares, Inc., the holding company for the bank in November 2008. The application
was subsequently withdrawn by the holding company in early December 2008.

The December 2008 C&D included, among other things, provisions related to capital and
required Freedom to:

    •   Within 30 days, develop and adopt a plan to meet the minimum capital
        requirements set forth in the C&D.

    •   Within 60 days, revise its capital plan to meet the minimum risk-based capital
        requirements for a Well Capitalized bank.

                                                   21
       •   Within 90 days, attain a Tier 1 Capital ratio of no less than 8 percent of total
           assets. The level of capital was to be maintained in addition to a fully funded
           ALLL satisfactory to the GDBF and the FDIC, as determined at subsequent
           examinations or visitations.

    Freedom responded to the FDIC on January 7, 2009 that it was working to restore capital
    to adequate levels. The FDIC issued a letter to Freedom on February 9, 2009, stating
    that, based on December 31, 2008 Call Report data, the bank was considered to be
    Significantly Undercapitalized. On February 25, 2009, the FDIC issued a letter when
    Freedom became Critically Undercapitalized, and GDBF closed the bank on March 6,
    2009.

CORPORATION COMMENTS

    After we issued our draft report, we met with management officials to further discuss our
    results. Management provided additional information for our consideration, and we
    revised our report to reflect this information, as appropriate. On September 16, 2009 the
    Director, Division of Supervision and Consumer Protection (DSC), provided a written
    response to the draft report. That response is provided in its entirety as Appendix 3 of
    this report.

    DSC reiterated the OIG’s conclusions that Freedom Bank failed primarily due to a rapid
    growth strategy and the Board of Directors’ failure to ensure that Freedom’s management
    identified, measured, monitored, and controlled the risks associated with the institution’s
    lending activities. As it relates to our assessment of the FDIC’s supervision of Freedom,
    DSC acknowledged the need for more stringent supervisory attention for de novo
    institutions. DSC further noted that the FDIC recently extended the de novo period from
    the current 3-year period to 7 years for examinations, capital, and other requirements, and
    that material changes in business plans for newly insured institutions will require prior
    FDIC approval during the first 7 years of operation.




                                                22
                                                                                     APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, the Inspector General of the appropriate federal banking agency
      shall prepare a report to that agency reviewing the agency’s supervision of the institution.
      The FDI Act requires that the report be completed within 6 months after it becomes
      apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted this performance audit from April to September 2009 in accordance with
      generally accepted government auditing standards. Those standards require that we plan
      and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
      basis for our findings and conclusions based on our audit objectives. We believe that the
      evidence obtained provides a reasonable basis for our findings and conclusions based on
      our audit objectives.

Scope and Methodology

      The scope of this audit included an analysis of Freedom’s operations from February 17,
      2004 until its failure on March 6, 2009. Our review also entailed an evaluation of the
      regulatory supervision of the institution from 2004 to 2009.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by the FDIC and GDBF
                 from 2004 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s Atlanta Regional Office
                       and Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Records of the bank’s external auditor, Nichols, Cauley & Associates LLC,
                       Atlanta, Georgia, as made available through the external auditor’s counsel
                       Carlock, Copeland & Stair, LLP, Atlanta, Georgia.




                                                     23
                                                                                   APPENDIX 1


                •   Records of the bank’s internal auditor, Mauldin & Jenkins, LLP, Atlanta,
                    Georgia, as made available through the internal auditor’s counsel Greenfield,
                    Bost, & Kliros, P.C., Atlanta, Georgia.

                •   Pertinent DSC policies and procedures.

          •   Interviewed the following FDIC officials:

                •   DSC management in Washington, D.C.; and Atlanta, Georgia.

                •   FDIC examiners from the Atlanta Field Office who participated in Freedom
                    examinations.

          •   Met with officials from the GDBF of Atlanta, Georgia, to discuss their historical
              perspective of the institution, its examinations, state banking laws, and other
              activities regarding the GDBF’s supervision of the bank.

      We performed the audit field work at the DSC offices in Atlanta, Georgia.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Consistent with the audit objectives, we did not assess DSC’s overall internal control or
      management control structure. We relied on information in DSC systems, reports, ROEs,
      and interviews of examiners to understand Freedom’s management controls pertaining to
      causes of failure and material loss as discussed in the body of this report.

      We obtained data from various systems but determined that information system controls
      were not significant to the audit objectives, and therefore, did not evaluate the
      effectiveness of information system controls. We relied on our analysis of information
      from various sources, including ROEs, correspondence files, and testimonial evidence to
      corroborate data obtained from systems that were used to support our audit conclusions.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not relevant to the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine
      compliance with certain aspects of the FDI Act. The results of our tests were discussed,
      where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
      related to our objectives in the course of evaluating audit evidence.


                                                   24
                                                                                         APPENDIX 2
                               GLOSSARY OF TERMS



      Term                                              Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to highest)
                    into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and lease
Losses (ALLL)       portfolio (including all binding commitments to lend). To the extent not
                    provided for in a separate liability account, the ALLL should also be sufficient
                    to absorb estimated loan losses associated with off-balance sheet loan
                    instruments such as standby letters of loan.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound practice or a
                    violation of laws and regulations. A C&D may be terminated when the bank’s
                    condition has significantly improved and the action is no longer needed or the
                    bank has materially complied with its terms.

Concentration       A concentration is a significantly large volume of economically related assets
                    that an institution has advanced or committed to a certain industry, person,
                    entity, or affiliated group. These assets may, in the aggregate, present a
                    substantial risk to the safety and soundness of the institution.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325 of the
(PCA)               FDIC Rules and Regulations, 12 Code of Federal Regulations, section 325.101,
                    et. seq., implements section 38, Prompt Corrective Action, of the FDI Act, 12
                    United States Code section 1831o, by establishing a framework for taking
                    prompt supervisory actions against insured nonmember banks that are less than
                    adequately capitalized. The following terms are used to describe capital
                    adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within
                    any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data and
Performance         ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)       report is produced by the Federal Financial Institutions Examination Council
                    for the use of banking supervisors, bankers, and the general public and is
                    produced quarterly from Call Report data submitted by banks.




                                             25
                                                                                                      APPENDIX 3
                         CORPORATION COMMENTS




FDII
Federal Deposit Insurance Corporation
550 17th Stree NW, Wasington. 0 C 2029-99                         DiYis of Supen an Cosume Prolecio


                                                                 September 16, 2009


MEMORANDUM TO                      Stephen Beard
                                   Assistant Inspector General for Material Loss Reviews

FROM:                              Sandra L. Thompson
                                   Director

SUBJECT:                           Draft Audit Report Entitled, Material Loss Review of Freedom
                                   Bank of Georgia, Commerce, GA (Assignent No. 2009-029)


Pursuant to Section 38(k) of     the Federal Deposit Insurace Act (FDI Act), the Federal Deposit
Insurance Corpration's Offce of Inspector General (OIG) conducted a Material Loss Review of
Freedom Bank of  Georgia (FBG), Commerce, Georgia, which failed on March 6, 2009. The
Division of Supervision and Consumer Protection (DSC) received the OIG's Draft Audit Report
(Report) on September 2, 2009, providing information on the cause of failure and an asessment
of   the FDIC's supervision ofFBG.

The Report notes FBG failed primanly due to a rapid growth strategy and the Board of
Directors' failure to ensure FBG management identified, measured, monitored, and controlled
the risk associated with the instinition's lending activities. Declining earnings, resulting from
rapidly deteriorating asset quality in the commercial real estate (CRE)/acquisition, development,
and constrction (ADC) concentrations, combined with the economic downturn, severely eroded
capitaL. Liquidity became deficient and secondary funding sources became restrcted. FBG
ultimately closed due to its capital position and inability to meet liquidity needs.

The Report indicates that FBG, due to its de novo status, was subject to additional supervisory
oversight and regulatory controls. The examinations, visitation, and offsite monitoring
conducted by DSC and the Georgia Department of Banking and Finance identified key concerns
for management attention, including high concentration levels and weak risk management
practices. The Report concludes more supervisory attention may have been warranted at earlier
examinations and as a result of offsite reviews.

In recognition that strngent supervisory attention is necesry for de novo institutions, DSC
recently extended our supervisory program so that these institutions receive a full scope
examination every year for seven years, as opposed to three years. Further, DSC has issued
updated guidance reminding examiners to take appropnate supervisory action when capital
levels are inadequate for CRE concentrations or funding risks are imprudently managed.

Thank you for the opportnity to review and comment on the Report.




                                                   26
                                                                    APPENDIX 4
            ACRONYMS USED IN THE REPORT


Acronym   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
ARO       Atlanta Regional Office
BBR       Bank Board Resolution
BOD       Board of Directors
C&D       Cease and Desist Order
CALL      Consolidated Reports of Condition and Income
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
CLP       Contingency Liquidity Plan
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
GDBF      Georgia Department of Banking and Finance
OIG       Office of Inspector General
PCA       Prompt Corrective Action
REST      Real Estate Stress Test
ROE       Report of Examination
SCOR      Statistical CAMELS Off-site Rating
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                               27
